<html>
<title> - HEARING ON THE NOMINATIONS OF MICHELLE DePASS, CYNTHIA GILES, AND MATHY STANISLAUS TO BE ASSISTANT ADMINISTRATORS AT EPA</title>
<body><pre>[Senate Hearing 111-1188]
[From the U.S. Government Publishing Office]






                                                       S. Hrg. 111-1188

HEARING ON THE NOMINATIONS OF MICHELLE DePASS, CYNTHIA GILES, AND MATHY 
            STANISLAUS TO BE ASSISTANT ADMINISTRATORS AT EPA

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 28, 2009

                               __________

  Printed for the use of the Committee on Environment and Public Works

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



       Available via the World Wide Web: http://www.gpo.gov/fdsys
                                      ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

94-582 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                        
                               
                          
                               
                               
                               
                               
                               
                               

               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED ELEVENTH CONGRESS
                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         JOHN BARRASSO, Wyoming
BERNARD SANDERS, Vermont             MIKE CRAPO, Idaho
AMY KLOBUCHAR, Minnesota             CHRISTOPHER S. BOND, Missouri
SHELDON WHITEHOUSE, Rhode Island     LAMAR ALEXANDER, Tennessee
TOM UDALL, New Mexico
JEFF MERKLEY, Oregon
KIRSTEN GILLIBRAND, New York
ARLEN SPECTER, Pennsylvania

                    Bettina Poirier, Staff Director
                 Ruth Van Mark, Minority Staff Director
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             APRIL 28, 2009
                           OPENING STATEMENTS

Boxer, Hon. Barbara, U.S. Senator from the State of California...     1
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     2
Klobuchar, Hon. Amy, U.S. Senator from the State of Minnesota....     4
Whitehouse, Hon. Sheldon, U.S. Senator from the State of Rhode 
  Island.........................................................     5

                               WITNESSES

Stanislaus, Mathy, nominated to be Assistant Administrator for 
  Solid Waste and Emergency Response, Environmental Protection 
  Agency.........................................................     6
    Prepared statement...........................................     9
    Responses to additional questions from:
        Senator Boxer............................................    12
        Senator Inhofe...........................................    15
Giles, Cynthia, nominated to be Assistant Administrator for 
  Enforcement and Compliance Assurance, Environmental Protection 
  Agency.........................................................    24
    Prepared statement...........................................    26
    Responses to additional questions from:
        Senator Boxer............................................    28
        Senator Inhofe...........................................    28
    Response to an additional question from Senator Voinovich....    30
DePass, Michelle, nominated to be Assistant Administrator for 
  International Affairs, Environmental Protection Agency.........    31
    Prepared statement...........................................    33
    Responses to additional questions from:
        Senator Boxer............................................    37
        Senator Inhofe...........................................    38

 
HEARING ON THE NOMINATIONS OF MICHELLE DePASS, CYNTHIA GILES, AND MATHY 
            STANISLAUS TO BE ASSISTANT ADMINISTRATORS AT EPA

                              ----------                              


                        TUESDAY, APRIL 28, 2009

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The full committee met, pursuant to notice, at 10 a.m. in 
room 406, Dirksen Senate Office Building, Hon. Barbara Boxer 
(chairman of the full committee) presiding.
    Present: Senators Boxer, Inhofe, Lautenberg, Klobuchar, and 
Whitehouse.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. Good morning. Today, the Public Works 
Committee will consider three nominees for Assistant 
Administrator positions at the EPA. The three offices 
administered by these positions are central to the Agency's 
mission to protect the public health and to protect the 
environment.
    Mathy Stanislaus has been nominated to be Assistant 
Administrator for the EPA's Office of Solid Waste and Emergency 
Response, which protects our families and communities from 
dangerous toxic wastes, including Superfund sites. The Nation's 
most heavily contaminated toxic waste sites are the Superfund 
sites. Mr. Stanislaus holds degrees in engineering and law, and 
he has more than 20 years of experience helping to ensure that 
toxic waste cleanups are done.
    One in four people live within four miles of a Superfund 
site, including 10 million of our children. During the Bush 
administration, the pace of cleanups declined by 50 percent 
compared to the Clinton administration, from about 80 cleanups 
per year to less than 40. The Nation also has a cleanup backlog 
of more than 100,000 leaking underground storage tanks which 
can threaten drinking water supplies.
    The GAO found that it could take $12 billion in public 
funds to clean up these tanks. Cleaning up these sites not only 
protects public health and safety, but provides jobs and helps 
to revitalize local communities.
    I look forward to hearing more about how Mr. Stanislaus 
will work to address these critical issues.
    Michelle DePass is the nominee to be EPA Assistant 
Administrator for International Affairs. Her experience 
includes working as Environmental Compliance Manager in my home 
State for San Jose, California, and is a Senior Policy Adviser 
at the New Jersey Department of Environmental Protection. Most 
recently, she has worked as a Program Officer at the Ford 
Foundation.
    EPA's Office of International Affairs works with other 
countries to address common threats to public health. In my 
State, which shares a border with Mexico, we worry about toxic 
waste sites and we worry about insufficient water treatment 
facilities and other environmental issues which pose health 
threats, and we know about the health threat facing us today in 
a different area.
    International shipping also threatens the health of people 
in California's port communities, an issue that I am glad to 
see Administrator Jackson is taking steps to address.
    We live in a world where solutions to serious health and 
environmental problems demand international cooperation, and I 
look forward to hearing from Ms. Giles about how she will 
approach these--why did I say Ms. Giles? That's wrong. I look 
forward to hearing from Michelle DePass--wrong--on how she is 
going to face these critical issues.
    [Laughter.]
    Senator Boxer. Cynthia Giles now is nominated to be 
Assistant Administrator for EPA's Office of Enforcement and 
Compliance Assurance. She has more than 30 years of experience 
in environmental law as Assistant U.S. Attorney in Philadelphia 
from 1985 to 1990, and then at EPA's Region III, the New 
England Interstate Water Pollution Control Commission, and the 
Massachusetts Department of Environment Protection. Since 2005, 
she has been Vice President and Director of the Advocacy Center 
for the Conservation Law Foundation in Rhode Island.
    The Office of Enforcement and Compliance Assurance is the 
safety net that backs up all of EPA's efforts to clean up the 
environment and protect public health. It not only helps 
facilities comply with safeguards, it also holds polluters 
accountable when they violate the safeguards that threaten 
public health.
    The new Assistant Administrator for Enforcement and 
Compliance has a lot of work to do to restore the confidence 
inside the agency and among the public.
    I want to say to each of you, congratulations on these 
nominations. You have the opportunity to rebuild the Agency's 
ability to safeguard communities, revitalize our economy, and 
restore the public's faith in the EPA. And we are fortunate to 
have such a strong group of nominees, and I really look forward 
to hearing about your plans to address these challenges.
    With that, I call on the Ranking Member, Senator Inhofe.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Thank you, Madam Chairman, and you started 
on time.
    Senator Boxer. Yes.
    Senator Inhofe. All right.
    Senator Boxer. We do try.
    Senator Inhofe. I know. I know.
    First of all, I have had the honor of visiting with each of 
these nominees. I see one problem and that is everyone is from 
the same area of the Country. Now, you may like that, Senator 
Whitehouse, but you know, it wouldn't hurt to have a little 
diversity. I mentioned this when each one of you was in my 
office and I really believe that you are going to be looking at 
things from a perspective that is not all locked into the far 
northeast.
    The EPA is grappling with policy decisions that could have 
serious impacts on rural America, and though not having a voice 
in the current Obama EPA, I hope the nominees will assure me 
today that they will bring balance to their decisionmaking, 
specifically by reaching out to rural communities and to seek 
their input.
    In fact, it would be kind of a good idea maybe for each one 
of you in your opening statements to address that. I know that 
you have answered to my satisfaction in my office, but I think 
it is something that probably has not gone unnoticed.
    I want to repeat a simple principle that I have been 
advocating my entire political career. We need to balance the 
environmental protection with concern over how decisions affect 
the economy and the people who run this great machine called 
America. Achieving this balance, as well as broadening the 
agency's geographical focus in decisionmaking will be essential 
in promoting our economic recovery.
    Madam Chairman, I am looking forward to hearing from each 
of the nominees. Thank you.
    [The prepared statement of Senator Inhofe follows:]

            Statement of Hon. James M. Inhofe, U.S. Senator 
                       from the State of Oklahoma

    Good morning. We are here today to consider three 
nominations for the Environmental Protection Agency: Michelle 
DePass for Assistant Administrator of the Office of 
International Affairs, Mathy Stanislaus for Assistant 
Administrator of the Office of Solid Waste and Emergency 
Response, and Cynthia Giles for Assistant Administrator of the 
Office of Enforcement and Compliance Assurance. I want to 
extend a welcome to all of you and your families here today.
    I have had the pleasure of meeting with all three of these 
nominees, and I look forward to working with each of them. One 
thing that concerns me, however, is that the Obama EPA is 
becoming top heavy with nominees from one region of the 
country. Ralph Waldo Emerson once said, ``Difference of opinion 
is the one crime which Kings never forgive.'' In our 
geographically diverse democracy, decisionmaking and policy at 
the Federal level are usually influenced by regional 
differences. I would argue this influence is a positive one. 
Unfortunately, I don't see this kind of regional diversity at 
the Obama EPA. Ms. DePass and Mr. Stanislaus are from New York 
City; Ms. Giles is from Rhode Island. That's fine, so far as it 
goes. Yet all three of these candidates are from urban centers 
on the East Coast. Couple these nominees with Gina McCarthy, 
who is from Massachusetts, and Administrator Lisa Jackson, who 
is from New Jersey, and you have an EPA team with little direct 
knowledge of the middle of the country. What is good for the 
East Coast is not necessarily good for the rest of the United 
States.
    EPA is grappling with policy decisions that could have 
serious impacts on Rural America, though it will not have a 
voice in the current Obama EPA. I hope the nominees will assure 
me today that they will bring balance to their decisionmaking, 
specifically by reaching out to rural communities to seek their 
input. What you do at EPA is important to Oklahomans, Ohioans, 
Tennesseans, Minnesotans, and many other parts of the country. 
To be successful in formulating policy, to make it work for 
everyone, you must have a national perspective.
    Finally, I want to repeat a simple principle that I have 
been advocating for my entire political career: we need to 
balance environmental protection with concern for how decisions 
affect the economy, and the people who run this great machine 
called America. Achieving this balance, as well as broadening 
the agency's geographical focus in decisionmaking, will be 
essential in promoting our economic recovery.

    Senator Boxer. Thank you so much, Senator.
    Senator Klobuchar.

           OPENING STATEMENT OF HON. AMY KLOBUCHAR, 
            U.S. SENATOR FROM THE STATE OF MINNESOTA

    Senator Klobuchar. Thank you very much, Madam Chair.
    And thank you to the nominees. It is great to see you all 
here. I just want to say, listening to Senator Inhofe here, I 
found actually in our State that you can join this idea of 
environmental protection and furthering the economy. I was just 
sitting there listening and thinking of two examples in our 
State, one when I was a prosecutor like you, Ms. Giles. We did 
a lot with enforcing the rules in our county, not necessarily 
legal criminal actions, but making sure that we were cleaning 
up brownfields and some of the waste sites, and we were able to 
then have some very successful businesses that started on those 
sites.
    The second example I would give you that is more rural, and 
I know you have been hearing from all of us the importance to 
look at the entire Country, and that is that the State of 
Minnesota spends $50 million a year, or our visitors do, on 
worms and bait for fishing. And I use that as an example 
because keeping our waters clean in Minnesota actually promotes 
our economy because we have people visiting that want to fish 
and hunt in our State. So we see this clear connection between 
having a cleaned up environment and furthering our economy in 
our State.
    A few other things just to think about, as Senator Inhofe 
was mentioning, some of the issues across the Country. Our 
State is one of the cleanest and leanest States. We have the 
second highest recycling rate of any State in the Country and 
we recently created the first e-waste recycling law in the 
Country which is worth looking at.
    This just passed in 2007 and it requires all manufacturers 
of video monitors to register to the State and to facilitate 
the collection and recycling of consumer products. The law 
ensures that televisions and computer monitors which may 
contain hazardous, yet valuable material, stay out of our 
landfills and instead are safely reprocessed.
    With nearly 200 recycling sites statewide, over 33 million 
pounds of waste have been collected since the enactment of our 
law, and the numbers have exceeded expectations.
    As I said, we see this as a way to compete internationally. 
We have one of the most aggressive mercury cleanup and mercury 
bans in the Country in our State, bipartisan with a Republican 
Governor signing that into law. And we have seen these issues 
in our State in a more bipartisan way, which I think has been 
very helpful.
    So just a few things to think about as you go through your 
hearing. Again, I want to congratulate you and look forward to 
working with you as a Member of this Committee.
    Thank you.
    Senator Boxer. Thank you.
    Senator Whitehouse.

         OPENING STATEMENT OF HON. SHELDON WHITEHOUSE, 
          U.S. SENATOR FROM THE STATE OF RHODE ISLAND

    Senator Whitehouse. Thank you, Chairman Boxer. Thank you 
for holding this important hearing today to consider the 
nomination of these three very well qualified individuals to 
fill key positions over at EPA.
    Madam Chair, I am especially pleased to introduce today Ms. 
Cynthia Giles, who is from my home State of Rhode Island. As 
the nominee for Assistant Administrator for Enforcement and 
Compliance Assurance.
    The Ranking Member, Senator Inhofe, may see a phalanx from 
the far northeast here, but from Rhode Island, we don't often 
get Presidential nominees. We are a small State.
    [Laughter.]
    Senator Whitehouse. So I am just very, very pleased and 
proud, and I want to recognize in the audience her husband, 
Professor Carl Bogus from the very renowned Roger Williams 
University School of Law in Rhode Island. So this is a happy 
day for us here in Rhode Island.
    I have known and worked with Cynthia for many years and 
have seen first-hand her leadership in the Ocean State on many 
critical environmental issues, including clean energy and 
climate change, water pollution and water resource management, 
and State Environmental Agency performance.
    Over many years, she has repeatedly proven herself to be a 
vigorous, successful and politically savvy advocate for the 
public good, and she will undoubtedly be an outstanding member 
of the President's environmental team. Her broad experience and 
success in protecting human health, the environment and 
effective environmental enforcement is evident. She spearheaded 
efforts in Rhode Island leading to the successful passage and 
implementation of RGGI, the Regional Greenhouse Gas Initiative, 
a regional cap and trade program aimed at reducing greenhouse 
gas emissions from electric generating facilities; by the way, 
with strong support from the electric generating industry.
    Additionally, with her leadership, Rhode Island adopted the 
California, or as we call it, the Rhode Island greenhouse gas 
emission standard for cars, and successfully defended these 
rules in Federal court last year.
    These are just a few of many examples demonstrating 
Cynthia's willingness to create, implement and enforce much-
needed environmental change and to facilitate cooperation 
between EPA and State and local governments and communities.
    She is actively involved in the Rhode Island community, 
teaching as an Adjunct Professor of Environmental Law at the 
Roger Williams University School of Law in Bristol, Rhode 
Island; serving as a Director of the Rhode Island chapter of 
the Conservation Law Foundation; and chairing the Rhode Island 
chapter of the Sierra Club.
    She has demonstrated strong and effective commitment to 
education, community outreach and collaboration to develop 
environmental policies that work. She has also previously 
served within the EPA at the Region III office in Philadelphia, 
Pennsylvania, helping EPA enforce Federal laws and assisting 
Region III States to implement those laws and regulations.
    Prior to that, she served in an office I hold dear, that of 
an Assistant United States Attorney, also in Pennsylvania, 
focusing again on environmental enforcement activities. She is 
a graduate of Cornell University, holds a law degree from the 
University of California at Berkeley, and a master's in public 
policy from the Harvard University Kennedy School of 
Government.
    Cynthia's career has been a clear testament to her desire 
to use her abilities for the greater good. She possesses a 
strong sense of purpose, strength of character, and the utmost 
integrity. She is eminently qualified for this position, and I 
am delighted to support her.
    I would add in closing that enforcement, fair and reliable, 
supports America's business community in adhering to 
environmental requirements and protecting those who play by the 
rules from those who seek unfair competitive advantage by 
cheating on the environmental laws that Congress has 
established.
    I look forward to working with her through her nomination 
and I look forward to seeing her be an active, fair and 
sensible enforcement voice for the Environmental Protection 
Agency.
    Thank you very much, Madam Chair.
    Senator Boxer. Well, you couldn't have made a stronger 
case, so thank you for that.
    I ask unanimous consent that a statement from Senator 
Schumer on behalf of Ms. DePass and Mr. Stanislaus be submitted 
for the record.
    Without objection, so ordered.
    [The referenced material was not received at time of 
print.]
    Senator Boxer. So now we are going to turn to our three 
nominees. We will start with Mr. Stanislaus, who is nominated 
to be Assistant Administrator for Solid Waste and Emergency 
Response at the EPA.

   STATEMENT OF MATHY STANISLAUS, NOMINATED TO BE ASSISTANT 
     ADMINISTRATOR FOR SOLID WASTE AND EMERGENCY RESPONSE, 
                ENVIRONMENTAL PROTECTION AGENCY

    Mr. Stanislaus. Thank you, Madam Chairman.
    Please allow me to first express my gratitude to Chairman 
Boxer and Ranking Member Inhofe for holding this hearing, to 
all Members of the Committee for their thoughtful statements, 
and for those of you who took the time to meet with me over the 
past few weeks.
    If I may, Madam Chairman, I would like to introduce my 
wife, Suganthy Siva and my parents who immigrated to this 
Country to provide the very kind of opportunity that I am being 
presented with here today.
    Senator Boxer. We would love them to stand. Very nice to 
see you all. Thank you for being here.
    Mr. Stanislaus. And of course, I don't want to forget and 
recognize my mother-in-law who is also here.
    Senator Boxer. Oh, no.
    [Laughter.]
    Senator Boxer. Hi. Special welcome.
    Mr. Stanislaus. As well as my sister, brother-in-law and 
friends who have taken the time to come out to support me and 
experience this experience with me.
    I also want to especially recognize two of the young people 
who promised to come out and support me and write school 
reports, my nieces Faith and Kelsey.
    Senator Boxer. Well, would you stand up, girls? It is very 
nice to see you. There they are. Thank you for being here.
    Mr. Stanislaus. I am deeply honored that President Obama 
has nominated me for the position of United States 
Environmental Protection Agency Assistant Administrator for the 
Office of Solid Waste and Emergency Response. If confirmed, it 
would be a privilege to work with and for Administrator Lisa 
Jackson to protect human health and the environment.
    President Obama and Administrator Jackson have affirmed two 
core values for EPA to uphold during this Administration: 
scientific integrity and the rule of law. As both environmental 
lawyer and a chemical engineer, I understand, like President 
Obama and Administrator Jackson, and believe that science and 
the law must be the foundation for sound environmental 
decisions. I pledge to uphold to this commitment.
    The President's commitment to the rule of law is a hallmark 
of a principled regulatory agency. EPA needs to exercise its 
policy discretion in good faith and in keeping with 
congressional and court directives. I respect this Committee 
for its diligent efforts to hold EPA to the rule of law and I 
pledge to uphold this principle every day if I am confirmed.
    I started my career as Assistant Regional Counsel in 1988 
for the EPA in its New York Regional Office, focusing on the 
Superfund Program and leading the implementation of the newly 
enacted Emergency Planning and Community Right to Know Act.
    Since then, I have worked in the private sector, as an 
adviser to EPA and the United Nations. I have testified at 
congressional hearings, and I am currently co-director of New 
Partners for Community Revitalization, a not-for-profit 
brownfields development organization.
    Based on my 20 years of work in brownfields, Superfund and 
solid waste programs, I believe that the lack of transparency 
and participation from communities in government decisions have 
resulted in a legacy of decisions that have left certain 
communities being burdened by contaminated sites and waste 
facilities.
    I strongly believe that the solution to addressing this 
failure requires engaging all stakeholders and ensuring 
transparency in decisionmaking. In particular, I believe that 
it is critical that government take the extra effort to provide 
access and information to those in our society who are most 
burdened by pollution.
    There is an opportunity to address both the public health 
and economic burdens of contaminated sites and waste 
facilities. A key principle to the challenges of contaminated 
sites and solid waste facilities is the forging of a common 
agenda and partnerships among diverse stakeholders, including 
environmental justice organizations, local governments, not-
for-profit brownfields organizations, businesses, developers 
and financiers.
    While I may be from the northeast, I can assure you that I 
will work throughout the United States to achieve that goal and 
will also work with rural governments to further that goal.
    In conclusion, if confirmed, I pledge to uphold the laws by 
which the EPA is directed, to conduct the affairs of the office 
in a transparent and open manner, to be responsive to the 
inquiries of this Committee and Congress, and to uphold the 
mission of the EPA to protect human health and the environment.
    Thank you.
    [The prepared statement of Mr. Stanislaus follows:]
  
  
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
   
    Senator Boxer. Thank you.
    Cynthia Giles, nominated to be Assistant Administrator for 
Enforcement and Compliance Assurance, EPA.

     STATEMENT OF CYNTHIA GILES, NOMINATED TO BE ASSISTANT 
    ADMINISTRATOR FOR ENFORCEMENT AND COMPLIANCE ASSURANCE, 
                ENVIRONMENTAL PROTECTION AGENCY

    Ms. Giles. Thank you, Madam Chairman.
    I would first like to take the opportunity to thank you and 
Ranking Member Inhofe for holding this hearing, and Senator 
Whitehouse for his very kind introduction.
    This is my husband, Carl Bogus, who is here, who was 
already introduced by Senator Whitehouse.
    Senator Boxer. Would you stand up, sir? Welcome.
    Ms. Giles. And two of my sisters, Andrea and Marilyn.
    Senator Boxer. Please stand. Welcome.
    Ms. Giles. I am honored to be nominated.
    Senator Boxer. How many sisters do you have?
    Ms. Giles. I have three sisters.
    Senator Boxer. That is nice. Any brothers?
    Ms. Giles. No.
    Senator Boxer. OK. Just checking it out.
    Ms. Giles. I am honored to be nominated to assist 
Administrator Jackson in the vital mission of the Environmental 
Protection Agency, and I thank her and President Obama for 
offering me this opportunity to serve.
    I have had the privilege of being a public servant both 
with State government and Federal Government, including EPA. I 
served as an Assistant United States Attorney in Philadelphia, 
where I represented the United States in suits to enforce 
Federal environmental laws. And I served in several positions 
within EPA Region III managing programs, lawyers, and the EPA 
Enforcement Program for Maryland, Delaware, Pennsylvania, 
Virginia, West Virginia and the District of Columbia.
    After moving to New England, I served as the head of the 
Water Program in the Massachusetts Department of Environmental 
Protection. I have also worked in the private sector, in a non-
profit environmental advocacy organization and even a brief 
stint in academia teaching environmental law.
    In today's parlance, I have been a dot.com, a dot.org a 
dot.edu and a dot.gov.
    [Laughter.]
    Ms. Giles. Over the course of my 30-year career in 
environmental law and policy, I have worked in just about every 
major area of environmental protection, including clean energy 
and climate change, RCRA and Superfund, clean drinking and 
surface waters, groundwater protection, wetlands, TSCA and 
others. I understand that compliance with the law is essential 
to secure the public benefits that the laws are designed to 
achieve.
    President Obama and Administrator Jackson have said 
repeatedly that the core values of EPA are scientific integrity 
and the rule of law. Enforcement is part of the commitment to 
the rule of law. It is part of our commitment to the people who 
expect the protections of clean air and water wherever they may 
live. And it is part of our commitment to businesses that 
should not be at a competitive disadvantage when they take 
seriously their responsibilities to obey the law and respect 
their neighbors.
    Scientific integrity must also be a guiding principle for 
enforcement. As we pursue compliance, we must look at and be 
guided by the facts, and make sure that we are addressing the 
biggest environmental and public health problems. And we need 
to be particularly mindful of our obligation to protect 
vulnerable populations.
    Responsible stewardship of our air and water is a necessary 
part of our economic vitality. Indeed, responsible stewards of 
businesses rely on EPA and the States to protect businesses by 
making sure everyone plays by the same rules. Especially now, 
the business community will be counting on EPA and the States 
to make sure there is a level playing field and that we are 
pragmatic and use common sense in achieving that goal.
    In seeking to ensure compliance with the laws passed by 
Congress, EPA, of course, works closely with the States. States 
have the majority of inspectors and enforcement staff and 
States have the local knowledge that helps to ensure that we 
are as efficient and effective as possible in enforcing the 
law.
    In this task, EPA and the States are partners. At the same 
time, EPA needs to make sure that the guarantees of clean air 
and clean water are shared equally by all. The Administrator 
has outlined five key goals for EPA: reducing greenhouse gas 
emissions; improving air quality; managing chemical risks; 
cleaning up hazardous waste sites; and protecting water.
    The Enforcement and Compliance Office of EPA will be part 
of achieving all of these goals and others by assuring that we 
enforce the law and achieve compliance with these programs to 
tackle these critical problems.
    I affirm my personal commitment to as much transparency and 
openness in the operations of government as possible. Not only 
should citizens know what their government is doing, but an 
informed citizenry is also an excellent ally in creating 
pressure for better compliance.
    President Obama and Administrator Jackson have pledged that 
under their watch, the environmental cop will be back on the 
beat. I stand ready to work with the capable and dedicated 
staff of the Enforcement Office to carry out that pledge.
    Thank you.
    [The prepared statement of Ms. Giles follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Boxer. Thank you so much.
    And last, but certainly not least, Michelle DePass, nominee 
for Assistant Administrator for International Affairs.

    STATEMENT OF MICHELLE DePASS, NOMINATED TO BE ASSISTANT 
    ADMINISTRATOR FOR INTERNATIONAL AFFAIRS, ENVIRONMENTAL 
                       PROTECTION AGENCY

    Ms. DePass. Thank you, Madam Chairwoman and Ranking Member 
Inhofe, for holding this hearing. It is an honor to be here.
    I would like to introduce my husband, Joshua Paulson.
    Senator Boxer. Welcome, sir.
    Ms. DePass. Who I am delighted is here with me.
    Allow me also to recognize my parents, Rupert and Marsyl 
DePass in absentia, who have supported me in my decisions 
throughout my entire life.
    I am deeply humbled President Obama has nominated me to be 
the Assistant Administrator for the Office of International 
Affairs at the Environmental Protection Agency. It would be a 
great privilege to work with and for Administrator Lisa 
Jackson. The Administrator is a gifted leader and policymaker, 
and I would be honored to serve with her in protecting our 
Nation's environment and public health.
    I sit before you today almost two decades after my 
environmental career began. My professional and personal 
commitment to protecting our environment has been field tested 
and strengthened during this time. Protecting our environment 
for the benefit of all Americans has not only been my career, 
it is my passion. And for me, this passion is not simply a 
question of protecting our natural resources. Rather, it is 
about protecting people and our future generations.
    I have dedicated my life to raising awareness and taking 
action to help people gain access to cleaner air, land and 
water, regardless of where someone lives or his or her economic 
circumstances. This passion began with a legal internship at 
the EPA in Region II in New York City. That extraordinary 
experience working side by side with dedicated staff to 
investigate and initiate corrective action on our most 
hazardous waste sites fueled two decades of experience in 
environmental policy and management.
    In that time, I have worked in and alongside 
nongovernmental entities, local governments, State government, 
and international institutions. I have helped empower local 
communities and organizations to ensure that their voices are 
heard when environmental policies are made that affect their 
lives. And I have worked in government to administer and 
develop such policies, first as Environmental Manager in the 
city of San Jose, and later as Senior Policy Adviser of the New 
Jersey Department of Environmental Protection.
    Currently, I serve as the Ford Foundation's Environment and 
Development Program Officer. In this position, I am responsible 
for supporting the development of sound environmental policies 
and practices in the local, national and international arenas. 
My background working with U.S. and global institutions 
representing diverse constituencies with nongovernmental 
organizations, coupled with my professional experience in 
government, has prepared me to foster cooperation on an 
international environmental agenda.
    Since 1970, the EPA has made great strides in giving our 
Nation a cleaner, healthier environment. In today's era of 
globalization, these challenges to our health and environment 
have grown. We cannot address them purely on a domestic level. 
President Obama's environmental initiatives are highlighted by 
five key objectives: reducing greenhouse gas emissions; 
reducing other air pollutants; addressing toxic chemicals; 
cleaning up hazardous waste; and protecting water.
    I share his commitment to these objectives and I am 
cognizant of their global potential. International cooperation 
on environmental issues is not only desirable, but necessary in 
ensuring the health of Americans. Pollution has no national 
boundaries.
    I was raised in Queens, New York, the Nation's most diverse 
county. My parents were immigrants who came to the U.S. from 
Jamaica, West Indies. They were intent on creating a better 
life for themselves and building a wonderful home for our 
family. From my earliest experience with family, community and 
education, I interacted with people of different cultures who 
spoke different languages, and I embrace the opportunity to 
work with Administrator Jackson and a team of dedicated 
professionals at the EPA to achieve cooperative solutions to 
the world's environmental problems and to the trans-boundary 
problems of toxics, air and water pollution.
    As one who has spent her career as a public administrator 
and lawyer in the public sector, I would be honored to lead the 
Office of International Affairs and to utilize the EPA's 
technical expertise in environmental science, research, 
education and policy to tackle our global environmental 
challenges.
    If confirmed, I will administer with the priorities of our 
President as my guide. I pledge today to serve the President 
and Administrator Jackson, this Committee, Congress and the 
citizens of the United States who are depending on our global 
expertise and cooperation.
    Thank you.
    [The prepared statement of Ms. DePass follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Boxer. Thank you very much.
    All of you made very strong statements and we thank you 
very much.
    The way we are going to proceed now is each of us will have 
5 minutes to ask questions. We are going to do it in order of 
arrival here. And I will start by just doing a required series 
of questions. I will go down starting from Mr. Stanislaus down.
    Do you agree, if confirmed by the Senate, to appear before 
this Committee or designated Members of this Committee and 
other appropriate committees of Congress and provide 
information, subject to appropriate and necessary security 
protection, with respect to your responsibilities as Assistant 
Administrators at the EPA?
    Mr. Stanislaus. Yes.
    Ms. Giles. Yes, I do.
    Ms. DePass. Yes, I do.
    Senator Boxer. The record will show you all said yes.
    And second question: Do you agree to ensure that testimony, 
briefings, documents and electronic and other forms of 
communication are provided to this Committee and its staff? By 
``this Committee,'' I mean both sides, the minority and the 
majority side. And other appropriate committees in a timely 
manner?
    Mr. Stanislaus. Yes, I do.
    Ms. Giles. Yes.
    Ms. DePass. Yes, I do.
    Senator Boxer. And last, do you know of any matters which 
you may or may not have disclosed that might place you in any 
conflict of interest if you are confirmed?
    Mr. Stanislaus. No.
    Senator Boxer. All right.
    So I just have a question for Mr. Stanislaus because of the 
situation we face in Superfund where I expressed my concern 
that we have slowed these cleanups dramatically by half. I 
would ask, if confirmed, will you agree to work with my staff 
to develop a plan to expedite the pace of cleanups?
    Mr. Stanislaus. Yes, I will.
    Senator Boxer. And sir, if you are confirmed, will you work 
with my staff to determine whether EPA could do more cleanup 
work if it had more funding? Would you let us know?
    Mr. Stanislaus. I will certainly look at the funding, as 
well as the technical issues. Absolutely.
    Senator Boxer. OK. I have some other questions for each of 
you, and I will submit them for the record.
    I will at this time call on Senator Inhofe.
    Senator Inhofe. Thank you, Madam Chairman.
    The last question, Madam Chairman, that you asked of the 
three on conflicts of interest, Mr. Stanislaus responded to it. 
The other two did not. Was that intentional?
    Senator Boxer. Oh, I am sorry. I thought you all--did you 
not respond? I am sorry.
    Ms. Giles. No, I did not. The answer is no.
    Senator Boxer. Oh, please. Well, let me ask you again. 
Thank you. I figured it would be fine, so I just thought I 
heard you say it.
    [Laughter.]
    Senator Boxer. So for the two of you, and thank you, 
Senator Inhofe. I will put back his full time.
    Do you know of any matters which you may or may not have 
disclosed that might place you in any conflict of interest if 
you are confirmed?
    Ms. Giles. No, Madam Chair.
    Ms. DePass. No, I do not.
    Senator Boxer. Well, thank you very much.
    Thank you, Senator.
    Senator Inhofe. All right. And I have a third question for 
the three of you, and that is, it is a little more specific, 
even though the Chairman did address this, and that is: Would 
you and your staff be just as responsive to Members of the 
minority on this Committee in terms of requests that are made, 
as you would if it were the Chairman?
    Mr. Stanislaus. Absolutely, Senator.
    Ms. Giles. Certainly, Senator.
    Ms. DePass. Yes, Senator, I will.
    Senator Inhofe. Well, that is what you said in my office, 
and I knew what the answer was.
    [Laughter.]
    Senator Inhofe. You mentioned, Ms. DePass, that in the past 
you were the manager of the Ford Foundation's initiative on 
environmental justice and healthy communities. Could you 
explain if there would be any change in your position, or how 
your new national and international role may require you to 
change your position that you have taken before?
    Ms. DePass. Thank you, Senator. Currently in my role as the 
Ford Foundation Program Officer, my work is to stimulate good 
environmental policy and practice nationally and 
internationally. I don't foresee that there will be any large 
or major changes as I will be working to protect the U.S. 
interest, working internationally now in bilateral and 
multilateral arenas.
    Senator Inhofe. All right. Fine.
    Ms. Giles, I am going to ask you something relating to your 
position on the sanctity of contracts and consent agreements. 
In your potential new capacity, and by the way, I would say 
that I intend to support all three of these nominees and I 
appreciate the time that they took to join me in my office, but 
in your potential new capacity as head of Enforcement and 
Compliance, you have responsibility and authority for 
enforcement of the NSR program. I notice that the EPA announced 
yesterday its intent to review three NSR-related decisions.
    Now, other recent enforcement actions by the EPA have 
sought to go after certain electric power generators because of 
one of the NSR rules was overturned by the D.C. Circuit Court. 
I would have to ask you, do you think that, as a matter of 
equity and basic fairness, that previous lawful conduct should 
give rise to retroactive liability? And what are your thoughts 
on the disincentives such a position creates to the 
implementation of programs that will be under your 
responsibility?
    Ms. Giles. Well, Senator, as I say in my testimony, one of 
the key foundational principles for EPA under Administrator 
Jackson is, of course, dedication to the rule of law. And part 
of that commitment, of course, is to follow court decisions 
that may occur over the course of consent decrees.
    My commitment, if confirmed, is to make sure that we 
effectively and fairly enforce the laws of the United States as 
those exist at the time and as may interpreted by the courts.
    Senator Inhofe. At the time that--at what time?
    Ms. Giles. At the time that those decisions are being made, 
Senator.
    Senator Inhofe. That an individual has, in other words, the 
rules that were in effect at the time that a person took the 
responsibility.
    Ms. Giles. Well, Senator, I am not familiar with the 
specific circumstances that you are referring to there. I would 
be happy to look at that.
    Senator Inhofe. Well, I am only referring to, it was a 
court decision, D.C. Circuit, that may have changed the rules. 
And I am talking about some of the generating companies that 
complied with the rules, the NSR rules, at the time, and then 
they changed the rules. This is my concern, not just that 
particular case, but anything else where there are rule changes 
that come up after the fact.
    Ms. Giles. Senator, it certainly is the obligation of the 
Office of Enforcement and Compliance, and my obligation if 
confirmed, to enforce the laws, including the new source review 
laws, to protect air quality in the United States, and from 
time to time court decisions may change the legal framework 
under which the Agency operates. In accordance with adherence 
to the rule of law, I think that EPA is required to go along 
with the law as interpreted by the courts.
    Senator Inhofe. OK. That is fine.
    Mr. Stanislaus, I wanted to get to a question you and I 
talked about in my office. And that was having to do with your 
affiliation with the New York City Environmental Justice 
Alliance and its member groups. I had brought up specifically 
that one of the member groups that your name is identified with 
received--and one of my Members brought this up to me, who 
isn't here now, I wish the Member would show up--that one of 
the member groups of that New York Justice Alliance solicited 
and received grants from Hugo Chavez.
    Now, I would ask you on the record now, is this something 
that you were aware of at that time, that you solicited, or 
that you approved?
    Mr. Stanislaus. No.
    Senator Inhofe. OK.
    And Mr. Stanislaus, I am concerned, as I brought up in my 
office, there is a lot of controversy on remedies, on what we 
are doing in the Superfund Program. It happens that the most 
devastating of all the Superfund sites in the Nation happen to 
have been in my State of Oklahoma. And you and I talked about 
this in the office. We have had the full cooperation now, I 
couldn't have asked for more cooperation previously in taking 
care of that particular Tar Creek Superfund site.
    There is some work remaining. The buyouts I think are 
pretty much complete. There are some things that have to be 
done with the land once all the buyouts and the moves have been 
made. I would just like to ask if you would give just the same 
full attention to that particular--completing that Superfund, 
the Tar Creek Superfund site in Oklahoma as we have had up to 
this date.
    Mr. Stanislaus. Absolutely, Senator. It is my intention to 
ensure that cleanup goes forward and is completed, along with 
all the other Superfund sites.
    Senator Inhofe. OK, I appreciate that very much.
    Madam Chairman, as you know, we also have an Armed Services 
Committee hearing right now, and I am going back and forth. I 
am going to try to get some other Members in here.
    Senator Boxer. OK.
    Well, I think this doesn't seem to be a contentious 
hearing, so I have a feeling you can go and not worry. If there 
are any big problems, staff will call you back.
    Senator Inhofe. Well, I always worry a little bit.
    Senator Boxer. Don't worry.
    [Laughter.]
    Senator Boxer. Ever since I took this, he has been 
worrying. I know.
    [Laughter.]
    Senator Inhofe. And this, too, will change.
    [Laughter.]
    Senator Boxer. No comment. It is too loaded a charge.
    Thank you. Have a good hearing at the Armed Services. Thank 
you.
    Senator Whitehouse, to be followed by Senator--you don't 
have any questions? Or you do? No?
    Senator Lautenberg.
    Senator Lautenberg. Thanks, Madam Chairman.
    And one of the things that we see in this Committee is many 
times we are witness to revelations. It is almost epiphanous in 
terms of what happens here. And our Chairman has earned the 
respect of everybody in the U.S. Senate and people outside 
because of her diligence in pursuing matters of importance.
    But it was in this very place in this Committee that we 
were introduced to a fellow named Barack Obama. He came here as 
a Member and it was immediately obvious that he was very 
talented, that he understood the issues and almost 
instantaneously. He responded with sensible responses to a 
situation that we were in, and he is a truly a very great 
protector of the environment.
    And I want to thank all of you for what you do, for 
protecting my grandchildren. And I urge you to continue to work 
as diligently as you can to continue that protection, because 
if you can take care of the Lautenberg grandchildren, you take 
care of everybody's grandchildren. And we love them all.
    And so when I see your careers thus to date and I see that 
two of you, Mr. Stanislaus, Madam DePass, you were born outside 
our Country, right?
    Mr. Stanislaus. I was.
    Ms. DePass. No, sir. I was actually born in New York City, 
but my parents were born in Jamaica, West Indies.
    Senator Lautenberg. I see. Well, so we can classify you as 
relatively new citizens. And the fact that you are here 
contributing at the level that you have, with the credentials 
and the veracity that you bring from your earlier assignments 
just tells us something about the system that we are on, the 
integration of people with ability and a commitment to do the 
job.
    So we thank you for that which you bring to this table and 
to what we expect will be a productive period of time in these 
new assignments. Obviously, you are not going to have a 
problem, any one of you, in being confirmed. The fact that we 
don't have a lot of attendance here also suggests not just that 
others may not want to hear what you have to say, but they have 
already come to a conclusion that you are qualified, and that 
you will have the support, especially with the leadership of 
our Chairman.
    And so I am pleased to see you here. I got a little 
frightened when the Chairman said that, or I should say a 
little encouragement, when the Chairman said that she was going 
to call on people based on their time of arrival, and I thought 
it meant arrival on earth and I would be----
    [Laughter.]
    Senator Lautenberg. And I thought certainly I would be 
first.
    Senator Boxer. Well, Senator, I will do that, but then we 
might go to in order of size.
    [Laughter.]
    Senator Lautenberg. Those who need the most protection. You 
don't need any protection.
    [Laughter.]
    Senator Lautenberg. I would ask, if I may indulge my 
friends, for Mr. Stanislaus, I was one of those who was very 
enthusiastic about saying that a very de minimis charge on 
those who produce items that could then turn into obnoxious 
waste should pay the price for monitoring or disposing of those 
things, the Superfund law. And that was originated, Ms. DePass, 
by a fellow named Florio. Jim Florio was a member of the House 
and later Governor of New Jersey. In a lame duck session in 
1980, he created the Superfund Program and established the fact 
that the polluter should pay.
    And Mr. Stanislaus, any challenge to the view that the 
polluter must pay for their share of the damage that they might 
do?
    Mr. Stanislaus. Thank you, Senator.
    President Obama has included the Superfund tax in his 
budget, and I will support that.
    Senator Lautenberg. I just want to catch up with Ms. Giles. 
You know, I looked at your career and I think back to days when 
I was much younger and kind of looking for a place to plant 
myself. And my mother would have looked at your resume and 
said: What's the matter? Can't you hold a job?
    [Laughter.]
    Senator Lautenberg. Anyway, it was wonderful, the 
experiences that you have had in different places I think 
prepares you so well for this responsibility.
    In 2008, a GAO report found the Bush administration fined 
polluting companies much less than the previous Administration. 
And if the companies knew that there was only small financial 
consequences for polluting, some of them they choose to break 
the law rather than spend the money cleaning up operations.
    What do you think ought to be included in vigorous 
enforcement of our environmental laws to make sure that a 
powerful incentive is to make certain that people are going to 
pay, pay fully, as fully as we can make them, for the damage 
they have created?
    Ms. Giles. Thank you, Senator.
    In achieving the objective of compliance with the law, 
aggressive enforcement is certainly one of the tools. And as 
you have pointed out, penalty structure is an important part of 
that enforcement to provide a deterrence to other companies 
from making a decision to violate the law and to recoup the 
economic benefit that a company might obtain by violating the 
law.
    Following through with that type of enforcement program is 
part of the way that the Office of Enforcement and Compliance 
assures that we achieve the protections for human health and 
the environment laid out in the Federal laws.
    Senator Lautenberg. Thank you.
    And Ms. DePass, forgive me for giving you to Paris, the 
elegance of your presentation commended that lofty title, but 
DePass is very good.
    And one of the things that certainly is a difficult problem 
if we try to cure the international assaults on America alone. 
And while I believe that the U.S. has the responsibility of 
leading the way in fighting pollution, fighting toxic 
disasters, with strong legislation to cap greenhouse gas 
pollution, we are going to need international cooperation. What 
do you think we can do to ensure that other countries also work 
to reduce the greenhouse gas emissions?
    Ms. DePass. Senator, thank you for your question.
    The President has made one of his commitment to set an 
agenda for the United States to lead the way in terms of 
setting and reducing greenhouse gas emissions. And the State 
Department is leading the actual delegation toward Copenhagen 
where we will set an agenda. Although I am not privy to the 
actual qualitative and quantitative goals that they have for 
the future negotiations, I do pledge, if confirmed, to be able 
to assist the Administrator and the Administration in 
encouraging major emitting countries to do the same.
    Senator Lautenberg. Madam Chairman, I congratulate you on 
the fact that we have the individuals of such high caliber that 
we automatically assume capability in getting the job done. We 
know that the hearts are there. We know the minds are there. 
And it is up to us to give them the tools to get the job done. 
And I commend all of you for your wonderful work and the record 
that you bring to these jobs. We hope you get started in a 
hurry.
    Senator Boxer. Well, Senator Lautenberg, you speak for us 
all when you talk about your grandkids always. And that is what 
our work is really about. And we need the backup. We need the 
backup support out there in the field where it really happens, 
because sometimes we make good policy here. We have great 
landmark laws, but if they are not enforced, they are not 
carried out, and their spirit is just not paid attention to, we 
don't fulfill the promise.
    So we are very thrilled that the three of you are here. I 
think it is a tribute that we didn't have a lot of people here, 
really. This is what you--for those of you watching this, the 
young people, I would say to them that when nominees are in 
trouble is when you get a big turnout and people pressing them 
and pressing. So know that this is a good sign.
    And of course, I was thrilled to hear Senator Inhofe say he 
supports the three of you. That is wonderful news for me and 
for all of us.
    We need to make sure our questions are submitted for two of 
the nominees by close of business tomorrow. Answers are due 
back by Friday at noon. Can you all make sure you do that? 
Friday at noon if you get written questions?
    Mr. Stanislaus. Yes.
    Ms. Giles. Yes.
    Ms. DePass. Yes.
    Senator Boxer. I don't want to miss anybody.
    Again, congratulations on how smoothly this went. And you 
all just come to us so highly qualified. We look forward to 
moving your nominations very quickly.
    Thank you, and we stand adjourned.
    [Whereupon, at 10:50 a.m. the committee was adjourned.]


                                 [all]
</pre></body></html>
